         FOR


                                                                             March 15. 1999




MEMORANDUM FOR

FROM:	                   Bruce N.

SUBJECT:	       Audit on Processin of Interest Earned on Federal Advances by Selected
                Organizations, Audit Report No. O-000-99-003-F

This is our audit report on the subject audit. In preparing this report, we considered your
comments on our draft audit report and included these comments as Appendix II.

We make two recommendations in the report. These recommendations call for the Office
of Procurement            to officially notify      Offices. Missions and recipients and/or
grantees that interest earned on Federal advances is to be remitted to the Department of
Health and Human Services (DHHS), Payment Management System. Rockville. Maryland.

In your comments on the draft report, you essentially agreed with our position. However,
your proposed action was to place a General Notice on the              external web-site for
the recipients to view. This action would suffice for           Offices/Missions, but is not
formal notification. Thus, this may not suffice for recipients as official notice of the
         requirements. We agree that placing a notice on the web-site will provide
information, but we do not believe this is an acceptable alternative to an official notice.
Accordingly, we believe that you need to review your management decision on these
recommendations to assure official notification to each            of          requirements
for remitting interest earned on Federal advances.

Please provide this office of your management decision concerning Audit

Recommendation Nos. 1 and 2 within 30 days of the date of our report.


I appreciate the cooperation and assistance provided to my staff on this assignment.
Background
Recipients and/or grantees’ expending $300,000 or more in a year on Federal awards are
to have single or program-specific audit conducted for that year. This requirement is
based on the Office of Management and Budget (OMB) Circular A-133, which specifies
uniform Federal policies related to audits of States, Local Governments, and Non-Profit
Organizations. These audits are commonly referred to as             A-133 audits. This
Circular requires, among other things, that the auditor assess compliance with agreement
terms and regulations. It is through these audits that          is usually informed of non­
compliance issues, such as interest earned on Federal funds that has not been returned as
specified in the agreement. In such instances, the Office of Inspector General issues a
report transmitting the recipient’s annual financial statement audit report, and if
appropriate, makes recommendations to management regarding any findings by the
auditors. An example of a recommendation would be for                to make a management
decision on the non-compliance with requirements concerning interest earned on Federal
funds advanced.
                                                                           2
In November 1993, OMB issued implementing instructions for the Cash Management
Improvement Act (the Act) which changed past practices for Federal agencies. The Act
established that interest earned on Federal funds was to be submitted to one Federal
location--DHHS, Payment Management System, Rockville, Maryland. Previously, an
organization, which was allowed to obtain Federal funds in advance, was required to
deposit these advance funds into interest bearing accounts. Subsequently, the organization
was required to record and report interest earned on Federal funds to the awarding agency.
such as           The organization was allowed to keep $100 of the interest earned, per
year, for administrative costs related to these funds. Then,        would determine if the
interest earned on Federal funds should be refunded by the recipient, or determine if the
recipient could use the earnings for program related activities.

In February 1995,          issued revised regulations carrying out this provision in the
Act. Based on our limited review,           unilaterally modified its awards with
recipients. These modifications put these organizations on notice of the changed process
for interest earned on Federal advances. The new             regulation provided:


   Through out the balance of this report, when referring to recipients and/or grantees, we will use the form:

   “recipient.”


   Amendments to Circular A- 1                Administmtive Requirements for Grants and Agreements With
   Institutions of Higher Educations, Hospitals,   Other Non-Profit Organizations, effective November 19,
   1993.

   22 CFR [Agency For International Development], Part 226 Administration of Assistance Awards to U. S.
   Non-Government Organizations, Subpart C - Post-Award Requirements, Section                   Paragraph


                                                        2

        “Except as otherwise provided in the terms and conditions of the award in
        accordance with           regulations or other implementing guidance for those
        entities where the Cash Management Improvement Act (CMIA) and its
        implementing regulations do not apply. interest earned on Federal advances
        deposited in interest bearing accounts shall be remitted annually to Department of
        Health and Human Services, Payment Management System, Rockville, MD 20852.
        Interest amounts up to $250 per year may be retained by the recipient for
        administrative expense.”

         requires that any organization receiving advances of more than $1 million
                                                          4
annually to submit the Federal Cash Transaction Report on a monthly basis. This report,
among other things, requires the recipient to disclose the amount of interest earned on
Federal advances. In utilizing this reporting requirement, we selected 30 recipients for
review of any earned interest income reported to            for the period of April 1. 1997
to June 30, 1998. The selection of these organizations was based on the “obligated
amount” (See Appendix III). These 30 recipients reportedly had               awards
(obligated amount), totaling approximately $1.3 billion.

Results of Audit

This audit was initiated because a recipient disputed an audit recommendation involving
approximately $7,000 in interest earned on Federal funds arising from its OMB A-133
audit report.’ In response to the issues raised, we designed an audit objective to answer
the following question:

        For the items tested, was interest earned on Federal funds advanced by
                being processed in accordance with          regulations?

We found, for the items tested, a mixed understanding regarding the processing of interest
earned on Federal funds advanced by              In some instances, recipients knew of the
revised regulation and sent the interest earned on advances to DHHS; but other recipients
remitted the interest to either a         office overseas or in Washington. When the
interest was remitted to an office in Washington, the office normally sent the funds to the
Office of Financial Management, who in turn, forwarded it to DHHS. Due to the limited
nature of this audit, we did not pursue the interest handling procedures or actions by
         Mission/Offices overseas or specific offices in Washington. The Scope and


    Standard Form, SF-272 or 272a

5
    Audit of Financial Statements of Project Concern International for the Period July 1, 1995 through June 30,
    1996, Audit Report No. 0-000-97-141-A, dated July 3, 1998. The report recommended that various award
    oftices make a management decision on the questioned cost of $7,064 resulting          interest income earned
    by Project Concern International. The questioned amount was related to interest income earned by the
    grantee on federal funds but not remitted to the Government.

                                                        3

Methodology for this report explains the depth and coverage of the audit work, evidence
gathering and the analysis techniques used to accomplish the audit’s objective (See
Appendix I).

OMB A-133 Audit Report Brings-out
Issue On Processing Interest Earned

In a major recipient’s report on its audited financial            the recipient argued that
interest income earned on its operating bank accounts was not the same as the interest
earned on Federal funds advanced. The recipient contended that the interest earned on
funds, through its various bank accounts, became its operating funds; and therefore,
disagreed with its auditor’s recommendations that the interest earned must be remitted to
DHHS as required in its awards from

This recipient’s audit report brought out that. at          both the management and the
auditors were not being responsive to this specific issue. In fact, the recipient stressed
that          was not answering its question concerning resolving prior audit
recommendations. Upon review, we found that inconsistency in our actions on recovery
of the interest earned on advanced funds. For example, in the fiscal year 1997 audit
report, the recipient pointed out that the current audit report basically resurfaced the same
issues and audit recommendations of prior year’s [fiscal year            audit report. The
prior years audit report disclosed that the recipient’s processing of interest earned income
was not -in accord with its agreements with            and, therefore, recommended that the
interest be remitted back to           Further, the recipient expressed continued frustration
with this issue by saying that it had not received consistent guidance from             on the
fiscal year 1996 audit report’s recommendations. Specifically in its fiscal year 1997 audit
report, the recipient disclosed that the          Office of Inspector General asked
Missions in Bolivia, Indonesia, and Nicaragua; and the               Office of Procurement in
Washington to make a management decision about whether or not recipient’s view of the
interest earned matter was acceptable or should if the interest earned should be returned to
          The recipient contended that it had not received any response from any
Mission or the Office of Procurement regarding the interest earned matter.

The management decisions on the Office of Inspector General audit recommendations
varied for the recipient. One Mission determined that the recipient should remit a check
in the amount of $424 payable to the Mission for the interest earned, since it determined
that it was an unallowable cost related to the Mission’s grant. Yet, another Mission
approved $991 of the interest earned income to be placed back into the program under its
grant. These funds represent a partial recovery of interest earned income of $1.415 from
a total of $7,064. Initially, we accepted these management decisions for partial recoveries
as an acceptable action because the contracting officer had directed this action. However


6
    Ibid.

                                              4
based upon our review of the            regulation, we recognized that the acceptance of the
funds back into the program was inappropriate and we. therefore, advised the appropriate
        offices to remit the interest earned to DHHS for recovery and processing.

The recipient’s OMB A- 133 audit report, for the fiscal year ending June       1997,
disclosed $14,612 in interest earned on Federal advances associated with           awards.
Although its management was aware of the             requirement calling for interest earned
on Federal advances to be remitted annually to DHHS, it concluded that this Code of
Federal Regulations (CFR) requirement reflects a continuing disparity in Federal
regulations between those dealing with US-based Federally funded activities and those
overseas-based Federally funded activities. The recipient argued further that the mere
reference to the DHHS in the           portion of the CFR, indicates that the domestic
Federal requirement was simply “lifted” and applied to the overseas programs. According
to the recipient, this action was viewed as inappropriate because overseas conditions vary
greatly from domestic situations. Its opinion was that to remit interest earned on such
accounts is contrary to the CFR and at variance with the Congressional policy authorizing
foreign assistance funds.

We disagree with recipient’s position on this matter. As described on pages 2 and 3 of
this report,        regulations’ clearly state that interest earned on advances shall be
remitted annually to Department of Health and Human Services.

To ensure that our interpretation of the           regulation was valid, we met with officials
from the Office of Procurement             to discuss the developments cited in the
recipient’s OMB A-133 audit report. These              officials agreed with us. That is, the
recipient’s interpretation of the provision on remitting interest earned was incorrect.

Review of 30 Awards Reveals More Problems

To find out if the above event was either an isolated incident or the reflection of a
problem, we reviewed 30 awards to major             recipients to discover how interest
remittances were processed. Our limited review showed that recipients were remitting
interest earned payments to various entities at          We found interest earned was
being remitted to the following entities: 1) the respective          Mission, 2) the program
and/or project office which the recipients work with. 3) the Office of Financial
Management, 4) the Letter of Credit Office within the Office of Financial Management,
and 5) DHHS, Payment Management System, Rockville, Maryland. However, only seven
of 30 recipients reported interest earned income for the period of April 1997 to June
    1998. Of the seven organizations that remitted interest, only one forwarded the
interest to DHHS. The financial officers of the remaining six recipients were not aware



7
    Agency for International Development, 22 CFR Part 226 Adminisuation of Assistance    to U.S.
    Government Organizations, Subpart C - Post-Award Requirements, Section              Paragraph
that the interest earned income should be remitted to DHHS nor were they aware of the
         regulation that requires this action. The total amount of interest earned from
these six organizations was nearly $159,000 (See Appendix IV).

Somewhat surprising to us was that 22 organizations, either reported a negative balance
for Federal funds advanced or a small cash balance (Federal funds) on hand at the end of
the reporting period. A finance manager for one of the recipients said that they draw on
federal funds after expenses have been recorded. They did this because guidance from
         management concerning the issues surrounding the “handling and distribution” of
interest earned on Federal advances was not forthcoming. They also stated that Federal
funds advanced are not banked long enough to gain any interest. This person also said:
“Under the current               guidance, or the lack thereof, the processing of interest
deriving from Federal funds advances is too much of a hassle to handle, record and
distribute . . . It, is just too much of a headache.”

In July 1998, we met with the Office of Financial Management (M/FM) officials to verify
the receipt and the procedures for processing interest earned payments. We were advised
that the interest payments are automatically forwarded to DHHS upon their arrival in FM.
However, according to the M/FM representative, who is responsible for distributing the
interest payments to DHHS, the following action, which has only been process for about a
month and a half, is performed on each payment item:

              a copy of the interest check is made and the check is inserted into an
              envelope with a hand-written message to DHHS, but no copy of the hand
              written message is kept to show record and date the transfer action took
              place;

              the copy of the interest check is placed in a folder for record keeping
              purposes, however, no-one documents the date the transmittal took place:

       3)     there is no process to confirm that DHHS received the interest
              check/payment, because there is no requirement on the part of DHHS to
              advise another Federal agency of the receipt of such payments.

During this review, we examined two folders labeled 1997 and 1998. These folders
contained copies of checks for payment of interest earned, refund for travel expenses and
other forms of payments that had been received in FM for processing. We verified two
payments in the 1998 folder. These two payments reflected interest earned income
payable to         or the U.S. Treasury in the amounts of $71,025 from one major
recipient and $725 from another recipient.
Clarification Is Needed on
Where to Remit Interest Earned

Based on the disclosures in the OMB A- 133 audit report and our review of 30 recipients
processing of payments for interest earned, we concluded that the recipients and
award offices are not fully aware of the changes brought about by the Cash Management
Improvement Act and              revised regulation. During our meetings with Office of
Procurement officials responsible for the major recipient. whose OMB A- 133 audit report
brought out this matter, we were assured that procurement officers were aware of the
changes that required recipients to remit the interest income to DHHS. However, these
same officials said that they have no reason to believe that such payments were being
forwarded to DHHS as required. They pointed out that current regulations authorizing the
recipient to retain $250 per year was being reviewed for the purpose of including the
wording that would allow the recipient to retain “$250 per account.

In light of the developments disclosed during our limited review, we are making the
following recommendations to the Office of Procurement to help ensure that
offices and its recipients are officially made aware of the changes brought about through
the Cash Management Improvement Act, effective February 1995. We hope this will lead
to consistent processing of these payments.

       Recommendation No. 1: We recommend that the Office of Procurement
       notify        Missions and Offices that the interest earned on Federal
       advances deposited in interest bearing accounts be remitted to the Department
       of Health and Human Services, Payment Management System, Rockville,
       Maryland.

       Recommendation No. 2: We recommend that the Office of Procurement,
       notify all recipient and grantee organizations that they are to remit interest
       income earned on Federal advances deposited in interest bearing accounts
       directly to the Department of Health and Human Services, Payment
       Management System, Rockville, Maryland.


Management Comments and Our Evaluation
Overall, the Office of Procurement’s Policy Division had no problem with the audit
position of issuing a General Notice to inform all            Missions and offices of the
requirement related to interest earned refunds. However, they contend that, rather than
attempting to issue an individual notice to all recipients, it seems more reasonable, while
still being informative, to put the notice on the external web-site for recipients to access.
The Division also pointed out that our suggestion that all interest must be remitted to
DHHS did not recognize that Section 530, Fiscal Year 1997 Appropriations Act, provides
          authority for         to allow recipients to retain interest to use for the

                                              7
furtherance of program purposes, in certain cases.

We believe that the proposed management action to use a              web-site for the
notification of policy matters is possibly an effective method to inform           personnel
of policies and/or policy revisions. However, we do not believe this method is
appropriate for an official notice to         recipients. We believe that an official notice
to the recipients is needed to ensure an understanding of the policy change and the
reasons for the policy change.

With regard to “all” interest earned, we believe our report and recommendations are clear
in that we are covering only Federal funds advanced for an activity. Section 530 pertains
to specific economic assistance conditions and not Federal advances. We believe that the
notice to all parties will cite only Federal funds advanced to recipients or grantees.




                                              8

                                                                              APPENDIX I
                                                                               Page 1 of 1



                              SCOPE AND

                             METHODOLOGY



This audit is limited in scope. Our audit work was done in accordance with generally
accepted government auditing standards, except as noted. Primarily, we relied on the
OMB A- 133 audit reports for Project Concern International covering its two fiscal years
ending June 30, 1996 and 1997, respectively. Also, we selected 30 recipients from
           Contract Information System (CIMS Report) on all awards as of April 1996, the
most recent year available. These 30 recipients had reportedly Federal funding (obligated
amount) of approximately $1.3 billion. For these 30 recipients, we attempted to verify if
they had earned interest income to be remitted to         during the period April 1, 1997
to June 30, 1998. The selection of the organizations was based on the “obligated amount”
(See Appendix III). The selection was based on our judgement and we did not attempt to
ensure that the selection was representative of        awards. However, these were some
of the largest awards. We did not attempt to verify the source information.

During our analysis of the year ended June 30. 1997 audit report for Project Concern
International (PCI), we noted that      claimed that interest earned income from its
operating bank accounts was not the same as the interest earned on Federal cash advances.
It contended that the interest earned on funds, through its bank accounts, became its
operating funds. Therefore, it disagreed with the auditors recommendations, in that the
funds must be remitted in accordance with their agreements to the Department of Health
and Human Services (DHHS), Payment Management System, Rockville, Maryland. Based
on this information, we reviewed           policy and procedures related to the subject
interest earned on Federal advanced funds. We obtained a copy of Agency For
International Development, 22 CFR Part 226 Administration of Assistance Awards to U.
S. Non-Government Organizations, Subpart C - Post-Award Requirements, Section


We used this as the criteria for our audit. If the awardee had not remitted interested
earned of more than $250 to DHHS, we considered this to be an error. The audit work
was conducted from July 1, 1998, through September 30, 1998, at              offices in
Washington D.C. We contacted various recipients by telephone and requested that they
submit documentation showing where they had sent any payments for interest earned on
Federal funds. Planning for the audit was limited to identifying pertinent criteria and
limiting our scope to as few files and records necessary to determine if there was a
problem. This audit report is limited to the disposition of interest earned on Federal funds
advance to some recipients.
                                                                          APPENDIX II

                                                                            Page 1 of 2
                       MANAGEMENT COMMENTS





D EVELOPMENT


                                             January 7.

      MEMORANDUM


      TO:




      Thank     for                  co         on      draft
                  have no               the      of issuing
     Notice to inform            offices     the requirement
     interest refunded to the                    grants and
     agreements       be sent to         Rather than          ng to
     individual notice to all                  seems more
     while still being                to put the notice     the
              so recipients      have access.


          basic         I have with the report
           all interest              Federal advances must
                  repcrt does                the              to
                for                              say anyThing
                              has through      atutcry provi
     in its

                       acts to allow                 to
          f urthcrance cf program                On page                  and
             paragraphs make           as though   the Cash Management
                   Act in 1994 and the February 7.995 issuance
     regulations took away              authority to allow a recipient
     r-stain            earned on advances       use for program
             has had statutory authority for a number of years now
     enables us to allow recipients to retain all interest.          The

                quoted from           regulation starts out: "Except as

                 provided in the terms and conditions of the award...."

     indicates that we may provide                      to requiring refund
          but $250.


     I don't have the citations for FY 98 or 99, but the          97
     appropriations act provided the following:
                                                                   APPENDIX II
                                                                     Page 2 of 2
                 MANAGEMENT COMMENTS




     Sec. 530. In             to enhance the continued participation
     nongovernmental       organizations In economic assistance
     activities under the Foreign Assistance Act of 1961,
                                 debt-for-development and
     debt-for-nature exchanges, a nongovernmental
     which is a grantee or contractor of the Agency for
                                     may place in interest
     accounts funds made                 under this Act or prior
         l o c a l currencies        accrue to that               as a
     result of economic assistance provided under title           of
     this          and any interest earned on such              shall
     used for the purpose           which the assistance was provided
     tc chat
N/OP will lss~e a                    that       offices are
that interest     be                   sent              i hops
report can be             to            that some               Se
retained                        when              in the
                                                                APPENDIX III
                                                                   Page 1 of 1


       List of Organizations Selected for Review Concerning
       Processing Interest Earned on Advanced Federal Funds

                      Organization                 Amount Obligated

        Academy for Educational Development                     1

        African American Institute                        35.12X.000

        AFRICARE                                          67.000.000

        Agricultural Cooperative Development

        American Institute for Free Labor                 29.55 I .OOO

        Asia Foundation

        CARE                                              X6.370.000

        Catholic Relief Services                          7X.000.000

        Citizens Network for Foreign Affairs

10.     Cooperative League of the USA                     23.000.000

        Family Health International                       15.000.000

12.     Helen Keller International. Inc.                  22.600.000

13.           Committee of the Red Cross                  23.X92.000

1-l.    Int’l. Executive Service Corporation

15.     Institute of International Education              26.X61.000

        International Medical Corporation                 27.790.000

17.     International Rescue Committee                    52.573.000

IX.     Management Sciences for Health                    7

19.     Mercy Corps International                         16.070.000

20.           International. Inc.                         12.355.000

21.     Pathfinders International

22.     People-to-People Health (Project HOPE)            62.795.000

23.     Project Concern International

        Save the Children

25.     Technoserve. Inc.

26.     The          Institute                            20.000.000

27.     Volunteers In Technical Assistance. Inc.          2 1.900.000

28.     World Education, Inc.                             17.236.000

29.     World Wildlife Fund                               23.246.000

30.     World Vision Relief                               60.       .OOO

        Total Dollars                                 $33822,000
                                                                                            Appendix IV
                                                                                                 1 of 1



            List of Organizations Incorrectly Processing of Interest
                      Earned On Federal Funds Advances
                                For the Period April          through June




                                                Period for
             Recipient Organization               Funds            Amount            Remitted To


AFRICARE                                        June 1998                   725

Mercy Corps International                       June 1998

Mercy Corps International                       June 1997               4,563

Mercy Corps International                       Dec. 1997               5.363

Catholic Relief Services                               1997            7 1.025

Project Concern International                   June 1996

                                                June 1996                   991

                                                June 1996               5.649     Recipient’ Program

                                                June 1997              14.612     Recipient’s Program

       Health International                     Dec. 1997              12.265        AID/Washington

                                                Sept. 1997             16.907

                                                Oct. 1997              10.636

                                                Dec. 1997              12.975

OIC               Inc.                          Sept. 1997                  401

Total Amount
